     U.S. Department of Health and Human Services

       Office of Inspector General 





Medicaid Fraud Control Units

      Fiscal Year 2013 

        Annual Report 

                                     Daniel R. Levinson
                                     Inspector General



                                     March 2014
                                     OEI-06-13-00340
                                  INTRODUCTION

This Medicaid Fraud Control Unit (MFCU or Unit) Fiscal Year (FY) 2013 Annual Report
highlights statistical achievements from the investigations and prosecutions conducted by
50 MFCUs nationwide. The Office of Inspector General (OIG) compiled information from
Quarterly Statistical Reports (QSRs) submitted by each Unit, as well as supplemental data
gathered by OIG through a variety of methods. See Appendix A for details about data sources
used in this Annual Report. OIG maintains updated MFCU information on the OIG Web site,
such as an interactive map with statistical information about each MFCU. This report represents
a new effort by OIG to compile in one document information about MFCU activities and results,
and we anticipate issuing annual reports for future years.

MFCU Operations
MFCUs investigate and prosecute Medicaid provider fraud and patient abuse and neglect in
health care facilities or board and care facilities.1 In FY 2013, 49 States and the District of
Columbia (States) operated Units. As part of their Medicaid plans, all States are required to
operate a Unit or demonstrate to the Secretary of Health and Human Services that operation of a
MFCU would not be cost effective and that other program integrity protections are in place.2
Units are jointly funded; the Federal government reimburses 75 percent of the costs of operating
a Unit, with the States contributing the remaining 25 percent.3 In FY 2013, combined Federal
and State expenditures for the Units totaled $230 million.4 The 50 Units employed
1,912 individuals at the end of FY 2013.5
Each Unit must be a single, identifiable entity of State government, distinct from the single State
Medicaid agency, and must develop a formal agreement (i.e., Memorandum of Understanding, or
MOU) that describes its relationship with that agency).6 MFCUs are required to have Statewide
authority to prosecute their own cases or have formal procedures to refer suspected criminal
violations to an office with such authority.7 In FY 2013, 44 of the Units were in offices of State
Attorneys General; in the remaining 6 States, the Units were in other State agencies.8
MFCUs operate on an interdisciplinary model and must employ a combination of investigators,
auditors, and attorneys.9 Unit staff review referrals provided by the State Medicaid agency and
other sources and determine the potential for criminal prosecution and/or civil action. Although
Units received many referrals of cases of potential fraud, often from the program integrity
divisions of State Medicaid agencies, referrals may also come from a variety of other sources,
including direct referrals from the general public. Similarly, Units receive referrals of patient
abuse and neglect from a variety of sources, including local adult protective services agencies.
MFCUs’ authority to receive Federal funding for cases of patient abuse and neglect extends to
Medicaid-funded health care facilities, such as nursing homes, and to “board and care” facilities,
such as assisted living facilities, which may or may not be funded by Medicaid.10 Additionally,
the National Association of Medicaid Fraud Control Units (NAMFCU) coordinates MFCUs,
typically through the involvement of MFCU attorneys from around the Nation, to work with the
U.S. Department of Justice and OIG on “global”—i.e., multi-State—civil false-claims cases.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                             1
                                  INTRODUCTION

OIG Oversight of MFCUs
HHS OIG oversees MFCUs and administers grants that provide Federal funding for Unit
operations. As required by statute, OIG developed 12 performance standards for use in assessing
the operations of MFCUs. A copy of the MFCU performance standards, most recently revised in
June 2012, may be found on the OIG Web site at https://oig.hhs.gov/authorities/docs/2012/
PerformanceStandardsFinal060112.pdf.11
On an annual and quarterly basis, MFCUs provide OIG with statistical and other information
about Unit operations and the results of investigations and prosecutions. OIG uses this Unit
information, as well as information from other sources, to determine whether to annually
recertify each Unit. Periodically—approximately every 5 years—OIG conducts an
in-depth onsite review of each Unit to evaluate its operations as related to the
12 performance standards and to assess compliance with laws, regulations, and OIG policy
guidance.
Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                           2
                                    TABLE OF CONTENTS

      MFCU CRIMINAL CASE OUTCOMES
                MFCUs reported 1,341 criminal convictions, mostly for fraud, in FY 2013 ..........4 

                FY 2013 criminal convictions involved a variety of provider types, most 

                notably home health agencies ..................................................................................5 

                FY 2013 recoveries from criminal cases reached nearly $1 billion .........................6 

      MFCU CIVIL CASE OUTCOMES
                MFCUs reported 879 civil settlements and judgments in FY 2013 .........................7 

                FY 2013 civil settlements and judgments involved a variety of provider types, 

                most notably pharmaceutical companies ...............................................................8 

                FY 2013 recoveries from civil cases totaled over $1.5 billion—most from 

                multi-State, global settlements—generally consistent with recent years ...............9 

      PROVIDER EXCLUSIONS
                MFCU convictions often led to the providers’ exclusions from all Federal 

                health care programs ..............................................................................................10 

      OTHER OBSERVATIONS
                Lack of fraud referrals from Medicaid managed care organizations presents 

                challenges for MFCUs ...........................................................................................11

                Recent payment suspension rules require more coordination between MFCUs 

                and State Medicaid agencies..................................................................................12 

      OIG OVERSIGHT
                In FY 2013, OIG conducted 10 onsite reviews of Units, published 8 reports on 

                onsite reviews, issued regulations to allow data mining by MFCUs, and 

                proposed new investigative authority regarding patient abuse and neglect ...........13 

      APPENDIXES
                A: Methodology ....................................................................................................15 

                B: FY 2013 MFCU Criminal and Civil Outcomes by Provider Type...................17 

                C: Selected FY 2013 Statistical Data....................................................................19 

                D: Additional Analysis, MFCU Case Outcomes, FYs 2010-2013........................23 

                E: Onsite Reviews Conducted and Reports Published in FY 2013 ......................24 

      ACKNOWLEDGMENTS ...............................................................................................25 

      ENDNOTES .....................................................................................................................26 





Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                                                3
                                MFCU CASE OUTCOMES
MFCUs reported 1,341 criminal convictions, mostly for fraud,
in FY 2013
As shown in Chart 1, about three-quarters of criminal convictions involved fraud; about
one-quarter involved patient abuse and neglect.12
       Chart 1: Percentage of FY 2013 Criminal Convictions by Type of Case
       (Fraud vs. Patient Abuse and Neglect)

                    Patient
                   Abuse and
                    Neglect
                     26%




                                                     Fraud
                                                      74%




        Source: OIG analysis of Quarterly Statistical Report, 2013.


FY 2013 criminal convictions for fraud: 74 percent
Fraud convictions included convictions for (1) conspiracy to commit health care fraud,
(2) health care fraud, (3) submitting false statements related to health care matters, (4) making a
false statement in regard to health care reimbursements, (5) grand larceny, and (6) violations of
anti-kickback statutes. For example, in August 2013, the New York MFCU obtained a
conviction of the owner of several pharmacies for stealing $7.7 million from the New York State
Medicaid program. The pharmacist submitted phony bills for drugs that were never dispensed to
patients. He was sentenced to a prison term of up to 3 years and was ordered to repay the stolen
money to the New York Medicaid program.

FY 2013 criminal convictions for patient abuse and neglect: 26 percent
Cases of patient abuse and neglect included aggravated assaults; injury to an elderly or disabled
person; and theft of patient funds.13 For example, in September 2013, the Maryland MFCU
obtained a conviction of a nursing home aide for abuse of a vulnerable adult in the second
degree. The convicted aide was placed on 2 years of probation, during which time he is
prohibited from being employed in any position that includes the supervision of vulnerable
adults. As another example, in August 2013, the Connecticut MFCU obtained a conviction of a
nursing home accounts-receivable clerk for stealing from a patient’s trust account. The clerk
was sentenced to serve 7 years in prison with 5 years’ probation. The clerk was also ordered to
pay $140,171 in restitution to the Connecticut Medicaid program and is prohibited from working
in the financial or health care sectors.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                              4
                               MFCU CASE OUTCOMES
FYs 2010–2013 criminal convictions
The total number of criminal convictions has remained relatively consistent in recent years. As
shown in Chart 2, convictions related to fraud consistently represented the majority of all
criminal convictions.

       Chart 2: Number of Criminal Convictions by Type of Case 

       (Fraud vs. Patient Abuse and Neglect), FYs 2010–2013


          1600
          1400
          1200                                       354              350
                       490                                                  Patient
          1000                        407
                                                                            Abuse and
           800                                                              Neglect

           600
                                                     982              991   Fraud
           400         839            823
           200
              0
                    FY 2010        FY 2011       FY 2012        FY 2013

       Source: OIG analysis of Quarterly Statistical Reports, 2013.


FY 2013 criminal convictions involved a variety of provider types,
most notably home health agencies
MFCUs criminal convictions most frequently involved home health care aides (26 percent of all
criminal convictions), other medical support (7 percent), and physicians (7 percent). See
Appendix B for a list of all convictions by provider type.
Home health care aides: 26 percent of criminal convictions
Home health care aides were most commonly convicted of fraud, often for claiming to have
rendered services that were not provided to vulnerable beneficiaries. For example, a Nevada
MFCU case resulted in the conviction of an individual employed by a home health care company
who claimed she provided services, such as bathing, dressing, cleaning, and meal preparation,
from February 2011 to September 2011, and who was paid for these services. However, the
individual’s outside employment conflicted with the care she claimed to have provided. She was
convicted of submitting false claims and sentenced to 30 days’ incarceration; suspended from
participation in the Nevada Medicaid program; required to perform 20 hours of community
services; and made to pay $1,250 in restitution, penalties, and costs.
Other medical support: 7 percent of criminal convictions
The category “other medical support” includes individuals, facilities, or organizations, whether
licensed or unlicensed, that provide medical support services. This category specifically
excludes pharmacies; pharmaceutical manufacturers; suppliers of durable medical equipment;
laboratories; providers of transportation; home health care agencies and aides; nurses; physician


Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                5
                                MFCU CASE OUTCOMES
assistants; nurse practitioners; and radiologists. Individuals in this provider category were
convicted of a wide variety of offenses. For example, a District of Columbia (D.C.) MFCU case
resulted in the conviction of the chief executive officer and owner of 2 rehabilitative and
therapeutic services companies on 1 count of health care fraud and 34 counts of false statements
for submitting more than $7 million in fraudulent claims to the D.C. Medicaid program.
According to evidence presented at trial, this individual submitted false claims for therapeutic
procedures, such as manual therapy, between January 2006 and April 2008. The defendant
billed Medicaid for as many as 48.5 hours of manual therapy for a single patient during a
24-hour period. As of February 2014, the defendant was awaiting sentencing and faced a
maximum of 10 years in prison, a $250,000 fine for the health care fraud conviction, and a
$250,000 fine for each of the false-statement convictions.

Physicians: 7 percent of criminal convictions
Criminal convictions of physicians involved offenses such as fraud (including prescription fraud)
and billing for services not rendered. For example, a California MFCU case resulted in the
conviction of two physicians for grand theft and receiving unlawful remuneration. The
physicians worked at a pregnancy clinic alongside marketers who wore scrubs and offered
pregnant women free baby gifts to visit the clinic. The women were told to use false names and
birth dates so they could visit repeatedly for more gifts. The clinic enrolled the women in
Medi-Cal’s (California’s Medicaid program) program for prenatal care (which uses a
presumptive eligibility standard, then performed cursory examinations, billed Medi-Cal for
extensive prenatal services that were never rendered, and paid the marketers $100 per patient.

FY 2013 criminal case recoveries reached nearly $1 billion
As shown in Chart 3, recoveries in FY 2013 exceeded the combined amount of recoveries in
FYs 2010–2012. A single case accounted for the bulk of these FY 2013 recoveries. In that case,
the Virginia MFCU led a joint State-Federal investigation of Abbott Laboratories, which
admitted liability for unlawful promotion of a prescription drug (Depakote) for uses not
approved by the Food and Drug Administration. The case resulted in the largest State MFCU
criminal recovery in U.S. history.
        Chart 3: Criminal Recoveries, FYs 2010-2013

                 $1,200,000,000
                                                                                       $968,878,848
                 $1,000,000,000
                   $800,000,000
                   $600,000,000
                                                                        $308,525,001
                   $400,000,000
                                       $174,004,532 $218,144,774
                   $200,000,000
                                 $0
                                           FY 2010            FY 2011    FY 2012         FY 2013

        Source: OIG analysis of Quarterly Statistical Reports, 2013.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                  6
                                MFCU CASE OUTCOMES
MFCUs reported 879 civil settlements and judgments in FY 2013
FY 2013 global civil settlements and judgments: 65 percent
In FY 2013, MFCUs participated in the resolution of NAMFCU-coordinated global cases
involving 588 civil settlements and 13 judgments.14 One example of a global civil settlement is
the case of ISTA Pharmaceuticals, Inc., in which numerous MFCUs reached a $15 million
agreement to settle allegations that between January 2006 and March 2011, ISTA marketed one
drug for uses not approved by the Food and Drug Administration and allegations that ISTA paid
doctors to write prescriptions for another unapproved ISTA drug. ISTA paid approximately
$18.5 million in a related criminal case in addition to the civil settlement.

FY 2013 “State-only” civil settlements and judgments: 35 percent
“State-only” cases are civil cases that involve only the State as the plaintiff. For example, the
New York MFCU was responsible for investigating a case in which the State reached a
$268,494 settlement with a dental center that received Medicaid payments for services that were
in violation of State regulations. The dental clinic billed Medicaid for patient teeth cleanings that
took place more frequently than the allowed once every 6 months, failed to properly document
billed services, and billed for noncovered services, all in violation of State Medicaid regulations.

FYs 2010–2013 civil settlements and judgments
As shown in Chart 4, the total number of civil settlements and judgments remained relatively
consistent in recent years.

       Chart 4: Total Number of Civil Settlements and Judgments, 

       FYs 2010-2013


           1,200
                          1,090

           1,000
                             907                        879
                                                                 824
             800


             600


             400


             200


                0
                        FY 2010            FY 2011            FY 2012   FY 2013
       Source: OIG Analysis of Quarterly Statistical Reports, 2013.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                               7
                          MFCU CASE OUTCOMES
FY 2013 civil settlements and judgments involved a variety of provider
types, most notably pharmaceutical companies
MFCUs most often obtained settlements and judgments from pharmaceutical manufacturers
(62 percent of all civil settlements and judgments), pharmacies (6 percent), and home health care
agencies (5 percent). See Appendix B for a list of all convictions by provider type.

Pharmaceutical manufacturing: 62 percent of civil settlements and judgments
In FY 2013, pharmaceutical manufacturing cases accounted for more than half of all MFCU
cases with civil settlements and judgments. As an example, the Virginia MFCU led an
investigation, along with 44 other Units organized through NAMFCU, the District of Columbia,
and the Federal Government, that reached a $1.5 billion civil settlement agreement with Abbott
Laboratories. This action settled allegations that Abbott Laboratories (1) illegally marketed the
drug Depakote for uses that were not approved by the Food and Drug Administration as safe and
effective; (2) made false and misleading statements about the safety, efficacy, dosing and
cost-effectiveness of Depakote for some unapproved uses; improperly marketed the product in
nursing homes; and paid illegal remuneration to health care professionals and long-term-care
pharmacy providers to induce them to promote and/or prescribe Depakote.

Pharmacies: 6 percent of civil settlements and judgments
Pharmacies were the second most common provider type in civil settlements and judgments. In
one case, the Vermont MFCU settled with a pharmacy over allegations that the pharmacy
obtained excessive payment from the Vermont Medicaid program by submitting claims for
dispensing drugs more frequently than instructed by physicians and more frequently than
permitted under Medicaid rules, and by charging beneficiaries illegal administrative fees and
copayments. The pharmacy agreed to make a settlement payment of $250,000, with additional
payments, plus interest, over 7 years. The pharmacy also agreed to reimburse beneficiaries for
copayments and administrative fees, which the State expects to total $111,000. The pharmacy
also agreed to heightened monitoring of its Medicaid claims by the State for the next 5 years.

Home health care agencies: 5 percent of civil settlements and judgments
Home health care agencies were the third most common provider type for civil settlements. For
example, the Michigan MFCU, along with the U.S. Attorney’s Office, the Federal Bureau of
Investigation, OIG, and Blue Cross Blue Shield of Michigan, reached a $1 million civil
settlement with several health care entities over allegations of conspiracy to pay illegal kickbacks
to practitioners and others for referring patients to clinics and agencies. As part of the civil
settlements, the owner of one home health agency agreed to a 20-year exclusion from Federal
health care programs, including Medicaid and Medicare.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                              8
                                 MFCU CASE OUTCOMES
FY 2013 recoveries from civil cases totaled over $1.5 billion—most
from multi-State, global settlements—generally consistent with
recent years
As shown in Chart 5, recoveries from global cases accounted for 78 percent of the $1.5 billion in
civil recoveries in FY 2013. As mentioned above, global cases often involve large
pharmaceutical manufacturing companies, multiple MFCUs, and the U.S. Department of Justice,
and result in large financial settlements.

       Chart 5: Percentage of Civil Recoveries That Resulted from Global 

       and State-Only Settlements, FY 2013* 



                                                                 State-only,
                                                                    22%




                                             Global,
                                              78%



       Source: OIG Analysis of FY 2013 MFCU Annual Report Supplemental Data Collection, 2013.

       *This information differs slightly from that reported in the Quarterly Statistical Reports, which does not break out civil 

       recoveries into global and State-only categories. Additionally, not all Units were able to provide civil recovery information 

       broken out into these two categories. 


As shown in Chart 6, total recoveries from MFCU civil settlements and judgments have been
consistent in recent years, with the noticeable exception of FY 2012. The somewhat larger
amount in FY 2012 is attributable to large global pharmaceutical cases settled that year.
See Appendix D for additional analysis of both criminal and civil MFCU outcomes in FYs 2010
through 2013.

       Chart 6: Civil Recoveries, FYs 2010-2013

           $3,000,000,000
                                                                            $2,633,844,564
           $2,500,000,000
                                   $1,726,510,790
           $2,000,000,000
                                                       $1,536,785,380                            $1,537,756,196
           $1,500,000,000

           $1,000,000,000

             $500,000,000

                            $0
                                       FY 2010              FY 2011              FY 2012             FY 2013


       Source: OIG analysis of Quarterly Statistical Reports, 2013.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                                                9
                               PROVIDER EXCLUSIONS
MFCU convictions often led to the providers’ exclusions from all
Federal health care programs
In FY 2013, OIG excluded 1,022 subjects as a result of MFCU investigations, prosecutions, and
convictions. As shown in Chart 7, this continues a pattern from previous years, demonstrating
that MFCUs are an important source of referrals to OIG for purposes of exclusion. OIG
excludes individuals and entities from federally funded health care programs (primarily
Medicare and Medicaid) when the providers are convicted of program-related crimes.15
Exclusion means that no payment will be made for any items or services furnished, ordered, or
prescribed by an excluded individual or entity.16 OIG data show that the number of MFCU cases
that lead to exclusions by OIG has accounted for a quarter or more of all OIG exclusions in
recent years.
       Chart 7: OIG Exclusions Based on MFCU Referrals, FYs 2010-2013

          1200
                         942                                          1,022
          1000
                                           721                 746
            800

            600

            400

            200

               0
                      FY 2010           FY 2011           FY 2012    FY 2013

       Source: OIG analysis of HHS OIG exclusion data, 2013.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                      10
                           OTHER OBSERVATIONS

Lack of fraud referrals from Medicaid managed care organizations
presents challenges for MFCUs
Medicaid services provided under managed care have steadily increased in recent years, with the
number of enrollees receiving services through managed care exceeding 42 million in 2011, or
about 74 percent of the total Medicaid population.17 A December 2011 OIG report found that
fraud and abuse in managed care was a primary concern to State Medicaid agencies and
managed care organizations (MCOs).18 Like other health care payers, MCOs may receive false
or fraudulent claims from providers. Federal regulations require Medicaid MCOs to establish
arrangements or procedures to guard against fraud and abuse.19 For example, MCOs may use
“edits” (system processes to ensure proper payment of claims) and retrospective reviews of
claims to prevent and detect fraud and abuse. Further, State contracts can require MCOs to
report instances of suspected fraud to the State Medicaid agency, the MFCU, or both.
However, in responses gathered for this report, officials from many MFCUs voiced concerns
about a lack of fraud referrals from MCOs in their States. Specifically, officials from 21 MFCUs
reported that their Units received fewer fraud referrals from Medicaid MCOs than the
respondents expected on the basis of the number of managed care-covered beneficiaries in their
States. Further, only 25 MFCUs reported receiving any referrals from Medicaid MCOs in
FY 2013.20 Although direct referrals from MCOs are not the only way Units can learn about
potential fraud in Medicaid managed care—for example, State agencies can forward allegations
of fraud to the Units—the MCOs are a critical source of referrals. This is especially important
for the increasing number of States that cover a substantial proportion of Medicaid beneficiaries
through managed care arrangements.
Through survey responses, some Unit officials also expressed possible reasons for this low
volume. Some respondents noted that because managed care is relatively new for some State
programs, MCOs were still developing and refining processes for fraud detection. Others
commented that some MCOs had only a small number of employees assigned to fraud
prevention, had not established robust efforts for detecting potential fraud, or used a narrow
interpretation of the provider activities that would constitute potential fraud and warrant referral.
A common concern expressed was that MCOs lack the incentive to detect and refer potential
fraud and may even have an incentive not to do so. For instance, MCOs indicated that they may
find it time-consuming to make referrals and support investigations, that MCOs can lose money
if their contracts do not allow them to share in fraud-related recoveries, and that MCO contracts
typically do not include negative consequences for a lack of fraud referrals. Thus, some MCOs
may find it preferable to remove a provider from their networks, rather than compiling
supporting documentation and making a fraud referral to the State Medicaid agency or MFCU.
To further examine these issues, OIG is planning (as part of its FY 2014 Work Plan) an
evaluation of how effectively Medicaid MCOs identify and address incidents of potential
fraud and how States oversee MCOs’ efforts to fight fraud and abuse.
Several MFCU officials also identified recent efforts to improve coordination with their States’
MCOs to increase the number of referrals, including establishing periodic meetings with MCO
program integrity staff to improve coordination, building informal relationships with


Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                               11
                          OTHER OBSERVATIONS

MCO program integrity staff, developing data mining for MCO-generated encounter data to
detect potential fraud, and working with the State Medicaid agency to adjust incentives to
encourage more robust engagement by MCOs in detecting and referring potential fraudulent
activity.
Recent payment suspension rules require more coordination between
MFCUs and State Medicaid agencies
Federal provisions related to payment suspension were revised in the Patient Protection and
Affordable Care Act of 2009 (ACA) and implemented in Federal regulations found at 42 CFR
§ 455.23, which took effect on March 25, 2011.21 Under these provisions, State Medicaid
programs must suspend payments after the Medicaid agency determines that a credible allegation
of fraud exists against a provider enrolled in the Medicaid program.22 In such cases, regulations
require the Medicaid agency to (1) refer the case to the MFCU or other appropriate law
enforcement agency and (2) suspend the provider’s payments unless the Medicaid agency
determines that a “good cause” exception applies, which results in a payment suspension not
being imposed despite a credible allegation of fraud.23
As of December 2013, 37 MFCUs had updated their MOUs with their State Medicaid agencies
to include language that seeks to address payment suspension of Medicaid providers against
whom there is a credible allegation of fraud. (Federal regulations require that these MOUs be
maintained.) In accordance with MFCU performance standards, Units must update their MOUs
with the State Medicaid agency periodically (at least once every 5 years) to reflect current law
and practice.24 The remaining 13 Units had not updated their MOUs since the new payment
suspension rule went into effect in 2011. In various communications with OIG, most Units
reported already having implemented procedures for coordinating with their respective State
Medicaid agencies on such fraud cases, and were in the process of formally updating their MOUs
to reflect those procedures.
During OIG’s recent onsite reviews of MFCUs, representatives from some MFCUs and State
agencies identified potential challenges associated with payment suspension based on credible
allegations of fraud. One challenge involves State entities determining what constitutes a
credible allegation of fraud. Although, in many cases, the fraudulent activity may be obvious on
the basis of initial evidence, interviewees explained that other circumstances may require
substantial review to determine whether payment suspension is warranted. Another challenge
involves making determinations in a timely manner. To ensure prompt suspension of payments,
if warranted, Units and State Medicaid agencies must coordinate in a timely manner when
determining whether an allegation is credible. Another challenge involves determining standards
for use of “good cause” exceptions. A Unit may request a “good cause” exception to avoid
compromising a case by alerting suspects that they are under investigation. A State Medicaid
agency may invoke a “good cause” exception if it determines that a payment suspension is not in
the best interests of the Medicaid program, such as when no other providers are available to treat
Medicaid beneficiaries in a specific geographical area. To further examine these issues, OIG has
undertaken additional reviews regarding payment suspension for a credible allegation of fraud.



Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                           12
                                  OIG OVERSIGHT

In FY 2013, OIG conducted 10 onsite reviews of Units, published
8 reports on onsite reviews, issued regulations to allow data mining
by MFCUs, and proposed new investigative authority regarding
patient abuse and neglect
Onsite reviews
OIG conducted onsite reviews of 10 Units in FY 2013. OIG conducts these oversight reviews
for each Unit approximately every 5 years to assess Unit compliance with applicable Federal
laws, regulations, and policies, and Unit adherence to the 12 performance standards. During
onsite reviews, OIG meets with Unit officials and with other key stakeholders familiar with the
Unit’s operations, such as the State Medicaid agency’s program integrity staff and Federal
investigators and prosecutors who sometimes partner with the Unit. OIG reviews the Unit’s
operations during the onsite visit, including policies, procedures, financial documentation, and
information about staffing and staff training. OIG reviews a sample of case files to assess (1) the
Unit’s compliance and performance in its handling of cases, including whether cases fell within
the scope of Unit authority; (2) its supervisory oversight of cases; (3) and the timeliness of its
casework.
Reports on onsite reviews
In FY 2013, OIG published 8 reports on MFCU onsite reviews. (See Appendix E for a list of
these reports.) Each report includes results from the onsite review; identifies any areas of Unit
noncompliance with Federal laws, regulations, or policies; identifies areas in which operations
did not adhere to the 12 performance standards; and includes other observations, as appropriate.
The reports also contain recommendations for any corrective action that the Unit needs to take.
Findings from these reviews revealed a few common concerns:
   	 Unit submission of conviction information: Onsite reviews revealed differences in
      interpretation about which convictions Units should refer to OIG. In 2013, OIG officials
      issued additional guidance to MFCUs clarifying that Units should submit to OIG all
      pertinent information on MFCU convictions—including charging documents, plea
      agreements, and sentencing orders—within 30 days of sentencing so that OIG may
      determine whether to impose exclusion.25
   	 Case file documentation and reviews: Onsite reviews revealed variation in Unit
      practices for maintaining records in case files and for ensuring supervisory review of
      ongoing investigations. The reports identified situations in which case file practices did
      not adhere to performance standards and recommended corrective actions, as appropriate.
   	 Completeness of MFCU staff training plans: Onsite reviews revealed that several
      Units’ training plans did not fully address the needs of professional staff (i.e., attorneys,
      auditors, and investigators). Reports made recommendations, as appropriate.
   	 Collaboration with the State Medicaid agency’s program integrity staff: Several
      onsite review reports highlighted critical interactions between MFCU staff, who
      investigate and prosecute Medicaid fraud, and their counterparts in the State Medicaid
      agency’s program integrity unit, who often detect fraud and implement fraud prevention


Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                              13
                                 OIG OVERSIGHT

       initiatives. These reports included findings and observations showing healthy and
       innovative collaboration in some States, as well as challenges that prevented effective
       collaboration in others. OIG encourages MFCU and Medicaid agency officials in all
       States to continue to improve how their entities work together to identify and deter
       Medicaid fraud.
Regulation on data mining
On May 17, 2013, OIG issued regulations giving new authority to MFCUs for data mining.26
Units may now submit plans—subject to OIG approval, in consultation with CMS—to receive
Federal matching funds for screening and analyzing State Medicaid data. As described in the
background to the revised regulation, analysis of Medicaid claims data has historically been the
responsibility of each State Medicaid agency, and MFCUs have been prohibited from receiving
Federal funding to conduct data mining. However, this practice of relying on State Medicaid
agencies has required MFCUs to remain highly dependent on referrals from those agencies.
Under the new regulation, MFCUs may submit applications to OIG for approval to conduct data
mining; these applications must include information about the Unit’s methods for 1) coordination
with the State Medicaid agency, 2) staying current regarding programmatic knowledge, and 3)
training MFCU staff in data mining techniques. As part of its approval process, OIG coordinates
with CMS, which oversees the Medicaid program at the Federal level.
Legislative proposal to expand authority regarding cases of patient abuse and
neglect
The President’s FY 2014 budget includes an OIG proposal to expand MFCUs’ authority with
regard to cases of patient abuse and neglect.27 Under current law, MFCUs are limited in their
investigations of such cases to complaints arising either in Medicaid-funded facilities (such as
hospitals or nursing homes) or in “board and care” facilities (such as assisted living
facilities). The proposal, reflecting the Medicaid program’s increasing reliance on home and
community-based services, would permit the investigation and prosecution of patient abuse and
neglect arising when Medicaid services are provided in a home or community-based
setting. MFCUs investigate a large number of cases of fraud in personal care services and other
fraud cases that arise in the home or community. The proposal would permit the Units to also
investigate situations of abuse and neglect that arise in these nontraditional settings.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                             14
                                    APPENDIXES

Appendix A: Methodology
We based the information in this report on an analysis of data from six sources: (1) Quarterly
Statistical Reports; (2) supplemental data collection for the FY 2013 MFCU Annual Report; (3)
HHS OIG exclusion data; (4) information gathered through onsite reviews; (5) MFCUs’ MOUs
with their State Medicaid agencies; and (6) the annual reports of individual MFCUs. We
analyzed data from all six sources to describe the criminal and civil case outcomes of MFCUs
during FY 2013 and in previous years when data was available. We also analyzed data to
describe exclusions from Federal health care programs, other observations about the environment
in which MFCUs operate, and OIG oversight of MFCUs. All statistical information is current as
of January 31, 2014, except where otherwise noted.
Data Collection and Analysis
Review of Quarterly Statistical Reports. In 2013 and in prior years, MFCUs submitted statistical
data to OIG each quarter. In the Quarterly Statistical Reports, Units reported data elements such
as the number of open investigations; the number of persons indicted or charged; the number of
criminal convictions; the number of civil settlements and judgments; the amount of criminal and
civil recoveries; and the number of staff employed. We reviewed Quarterly Statistical Reports
for FYs 2010 through 2013 to determine the number of convictions for fraud and for patient
abuse and neglect; recoveries associated with those convictions; the number of civil settlements
and judgments; and recoveries associated with those civil outcomes.
Supplemental data collection for the FY 2013 MFCU Annual Report. We requested additional
data from all MFCUs in November 2013. We received responses from 49 of the 50 Units. We
used this supplemental information to provide statistical information about the types of providers
that were most frequently convicted in criminal cases or involved in civil settlements and
judgments in FY 2013. We determined the number of State-only and global civil settlements and
judgments and the recoveries associated with those civil outcomes. The supplemental data
collection also provided information about referrals that MFCUs received from MCOs.
HHS OIG exclusion data. We reviewed HHS OIG Exclusion Data to determine the number of
Federal health care program exclusions that OIG made on the basis of information referred by
MFCUs.
Information from onsite reviews. We examined information gathered during onsite reviews to
identify other observations about the environment in which MFCUs operate, such as challenges
in receiving referrals from MCOs and the extent to which the new rules on payment suspension
require more coordination between MFCUs and State Medicaid agencies.
MOUs between MFCUs and State Medicaid agencies. As a requirement for recertification and
to fully adhere to the performance standards, each MFCU must have an MOU with its State
Medicaid agency, review the MOU every 5 years, and ensure that the MOU reflects current
practice, policy, and legal requirements, including 42 CFR §§ 455.21 and 455.23. We reviewed
the most current MOUs as of January 15, 2014, to determine the extent to which they included
language about the payment suspension provisions at 42 CFR § 455.23. For purposes of the
Annual Report, we identified only whether each MOU referenced the functions outlined in


Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                           15
                                    APPENDIXES

42 CFR § 455.23; we did not attempt to assess the adequacy or sufficiency of the processes
described in the MOUs.
MFCU Annual Reports. As a grant requirement, each MFCU must submit to OIG an annual
report that highlights its activities. We reviewed the most recent annual report from each MFCU
for case examples of frequently convicted provider types (such as home health care agencies)
and provider types with which MFCUs were frequently involved in civil settlements and
judgments (such as pharmaceutical manufacturers).




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                         16
                                       APPENDIXES

Appendix B: FY 2013 MFCU Criminal and Civil Outcomes by
Provider Type
                     Table B1: FY 2013 Outcomes: Number of Convictions, Settlements
                             and Judgments, and Recoveries by Provider Type*
                                               Criminal                               Civil

Provider Type                                                                 Number of
                                        Number of         Amount of                              Amount of
                                                                        Settlements and
                                       Convictions        Recoveries                             Recoveries
                                                                             Judgments

TOTAL                                         1,377    $980,130,529                898        $1,499,049,422

ABUSE AND NEGLECT

Certified Nursing Assistants                    75           $39,644                 1                    $0
Home/Personal Care Aides                        14          $147,118                 0                    $0
Nursing Facilities                              10          $154,692                 6             $770,845
Registered/Licensed Nurses,
Physician Assistants, and Nurse                 62           $80,284                 5               $2,500
Practitioners
Other Long-Term Care                            21          $156,538                 1              $25,000
Other                                           44           $40,078                 4              $14,790

FRAUD: Facilities

Hospitals                                        4        $17,890,082               21          $12,706,211
Nursing Facilities                              14         $1,121,053               16           $8,305,826
Substance Abuse Treatment Centers                1          $628,678                 2              $22,047
Other Long-Term Care                            11          $340,562                 3           $2,067,897
Other                                           10         $4,446,605               13           $7,015,534

FRAUD: Medical Support

Suppliers of Durable Medical
Equipment                                       35        $22,099,494                7           $2,793,305
Home Health Care Agencies                       68        $57,500,409               46           $4,324,719
Home Health Care Aides                         363         $6,572,537               25             $325,738
Laboratories                                     4                $0                 5          $28,952,346
Nurses, Physician Assistants, and
Nurse Practitioners                             59         $1,094,172               10             $256,090
Pharmacies                                      45     $721,463,280                 55          $39,048,460
Pharmaceutical Manufacturers                     0                $0               558        $1,344,013,697
Radiologists                                     0                $0                 0                    $0
Transportation Providers                        38         $8,658,649               12           $3,537,155
Other                                           92         $5,048,778               13          $13,881,130
                                                                                  Continued on the next page.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                     17
                                                   APPENDIXES
                          Table B1: FY 2013 Outcomes: Number of Convictions, Settlements
                                  and Judgments, and Recoveries by Provider Type*
                                                                Criminal                                          Civil

Provider Type                                                                                       Number of
                                                     Number of              Amount of                                        Amount of
                                                                                              Settlements and
                                                    Convictions             Recoveries                                       Recoveries
                                                                                                   Judgments


FRAUD: Practitioners

Chiropractors                                                     3          $2,061,921                          0                         $0
Counselors/Psychologists                                         59        $16,875,233                           9            $2,329,487
Dentists                                                         31          $6,620,336                         17            $3,483,034
Optometrists/Opticians                                            6          $1,194,862                          3              $282,922
Physicians or Doctors of Osteopathy                              94        $95,226,296                          42          $21,798,724
Podiatrists                                                       1          $1,363,070                          0                     $0
Other                                                            14          $1,496,519                          6             $257,808
FRAUD: Program Related

Billing Companies                                                 1              $23,063                         1              $240,000
Managed Care Organizations                                        6          $2,718,602                          0               $36,607
Medicaid Program Administration                                   7            $956,138                          0                         $0
Other                                                            56          $2,010,511                         14          $12,547,974
THEFT OF PATIENT FUNDS

Certified Nursing Assistants                                     35            $116,978                          0                         $0
Nondirect Care                                                   23            $703,901                          0                         $0
Registered/Licensed Nurses,
Physician Assistants, and Nurse
Practitioners                                                     6               $7,872                         1               $10,000
Other                                                            65          $1,272,572                          2                    $25
Source: OIG Analysis of supplemental data collection for the FY 2013 MFCU Annual Report, 2013.

*This information differs slightly from that reported in the Quarterly Statistical Reports. Not all Units were able to all provide the 

information requested in the supplemental data collection for the FY 2013 MFCU Annual Report.

*Some categories are current as of February 21, 2014.





Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                                                       18
                                        APPENDIXES

APPENDIX C: Selected FY 2013 Statistical Data
                Table C1: Investigations, Indictments or Charges, Criminal Convictions,
                             and Civil Settlements and Judgments by State
                                                   Indictments or           Criminal
                       Investigations                                                             Civil
                                                      Charges              Convictions
                                                                                              Settlements
State                              Abuse                     Abuse               Abuse
                                                                                                  and
                    Fraud            and         Fraud        and       Fraud      and
                                                                                              Judgments
                                   Neglect                  Neglect              Neglect
Alabama               10             17             2           2         0         0                8
Alaska               202                17         57           1         17         2              10
Arizona              237                83         50           22        29         8               0
Arkansas              52                38          6           14         3         7              16
California           718                439        69           60        41        27              19
Colorado             241                 8         18           0         13         0              36
Connecticut           53                11         15           1          6         1              11
Delaware             478                81          0           5          0         7               9
District of
                     115                71          0           1          4         2              15
Columbia
Florida              596                62         39           28        48        19              28
Georgia              336                 4         13           0         10         1              15
Hawaii                50                63          0           7          4         5              13
Idaho                115                 4          5           0          4         0              12
Illinois             236                75         41           21        38        26              21
Indiana              812                252        13           2         16         9              30
Iowa                 205                35         31           19        18        13              13
Kansas               127                19          7           1         13         0              15
Kentucky             104                14          8           2          8         0              17
Louisiana            317                79         76           17        47        15              39
Maine                 31                 7          7           2          6         4               6
Maryland             284                36          7           6         12         5              29
Massachusetts        497                186        20           2         17         0              32
Michigan             436                49         11           8         11        17              16
Minnesota             86                 3         24           0         20         3              21
Mississippi           78                611         3           33         0        54              14
Missouri             280                21          7           1         13         1              31
Montana               26                 1          4           0          6         0               9
Nebraska              75                22          4           0          9         5              19
Nevada                19                 3         12           2         13         3              15
New Hampshire         31                 7          0           2          1         3              15
New Jersey           352                12         19           3         11         3              14
New Mexico           107                 5          8           0          9         1              30
New York             677                124        131          44        110       28              69
                                                                                  Continued on the next page.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                     19
                                                 APPENDIXES

                      Table C1: Investigations, Indictments or Charges, Criminal Convictions,
                                   and Civil Settlements and Judgments by State
                                                                 Indictments or          Criminal
                               Investigations                                                              Civil
                                                                    Charges            Convictions
                                                                                                       Settlements
State                                          Abuse                       Abuse              Abuse
                                                                                                           and
                            Fraud                and           Fraud        and     Fraud      and
                                                                                                       Judgments
                                               Neglect                    Neglect            Neglect
North Carolina               402                 16              20           0       28        2          18
Ohio                         701                 348            138         15       133       15          21
Oklahoma                     135                  78            12          11       15        6           20
Oregon                        46                  4             23          4        27        2           13
Pennsylvania                 337                  15            76          0        51        3           13
Rhode Island                  48                  23             9          8         9        0           4
South Carolina               151                  26            32          13       21        13          18
South Dakota                  42                  7              1          1         1        1           0
Tennessee                    187                  26            14          8        10        14          17
Texas                       1165                 114            104         8        82        15          18
Utah                          93                  13             2          0         3        1           15
Vermont                      116                  18             7          2         9        0           12
Virginia                     363                  10            24          4        18        3           11
Washington                   152                  12            10          0         9        2           16
West Virginia                 49                  42             4          8         7        3           17
Wisconsin                    339                  11            10          3         8        1           2
Wyoming                       57                  2              4          0         3        0           17
Total                      12,366               3,224          1,197       391       991      350         879

Source: OIG analysis of Quarterly Statistical Reports, 2013.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                            20
                                      APPENDIXES

                         Table C2: Recoveries, Expenditures, and Staff by State
                                Recoveries                               Expenditures               Staff
State                                                                                                on
                       Total       Criminal             Civil   MFCU Grant        Total Medicaid
                                                                                                    Board
Alabama           $16,206,582            $0       $16,206,582      $1,110,349      $5,216,155,508     8
Alaska             $1,093,136       $53,058        $1,040,078      $1,156,792      $1,446,189,444     8
Arizona             $622,974       $589,704           $33,270      $2,408,103      $8,669,976,278    21
Arkansas          $14,622,465       $32,643       $14,589,822      $2,211,756      $4,428,390,909    21
California        $57,748,650    $19,975,038      $37,773,612     $30,260,728     $66,056,757,855    172
Colorado           $8,131,662      $226,252        $7,905,409      $2,046,627      $5,314,867,064    16
Connecticut       $28,228,261      $140,246       $28,088,014      $1,629,583      $6,723,113,621    11
Delaware            $398,817        $28,000          $370,817      $1,877,814      $1,655,387,071    17
District of
                   $7,805,484     $3,937,198       $3,868,286      $2,473,055      $2,397,083,097    21
Columbia
Florida           $40,891,858     $9,048,765      $31,843,093     $14,179,446     $19,180,703,866    151
Georgia           $28,881,718     $1,793,138      $27,088,580      $4,029,111      $9,359,038,151    42
Hawaii             $4,537,670       $48,017        $4,489,653      $1,288,535      $1,696,678,001    13
Idaho              $6,553,493      $204,312        $6,349,180       $695,463       $1,761,758,211     7
Illinois          $60,041,822      $917,903       $59,123,919      $9,541,211     $16,536,234,179    58
Indiana           $28,246,064     $7,934,941      $20,311,123      $5,236,624      $8,367,085,690    58
Iowa              $10,717,543      $150,132       $10,567,411      $1,040,525      $3,805,810,851     9
Kansas            $23,438,027     $2,298,195      $21,139,833      $1,514,339      $2,720,787,284    15
Kentucky          $39,547,876      $289,576       $39,258,300      $2,608,934      $5,931,446,503    28
Louisiana        $187,601,191    $63,873,287     $123,727,904      $4,863,800      $7,181,407,383    52
Maine              $7,403,483      $110,124        $7,293,360       $700,451       $2,959,349,126    6.5
Maryland          $22,331,246      $198,147       $22,133,100      $2,839,746      $8,052,966,208    28
Massachusetts     $29,607,993      $884,124       $28,723,869      $5,271,067     $13,687,392,762    43
Michigan          $24,541,893      $353,924       $24,187,969      $4,882,449     $12,970,899,451    33
Minnesota         $14,988,004     $1,922,673      $13,065,331      $1,464,767      $9,343,811,915    14
Mississippi       $27,788,828     $8,771,739      $19,023,789      $3,087,424      $4,879,175,168    35
Missouri          $47,764,282     $2,693,335      $45,070,947      $1,984,423      $9,209,870,025    20
Montana             $985,871        $34,845          $951,026       $654,447       $1,076,709,165     8
Nebraska           $8,593,146      $175,562        $8,417,584       $770,566       $1,906,330,745     8
Nevada             $6,261,358     $2,648,816       $3,612,543      $1,904,689      $1,918,533,349    16
New Hampshire      $3,663,351      $152,162        $3,511,189       $523,160       $1,292,037,438     6
New Jersey        $33,887,934     $1,174,166      $32,713,769      $4,579,683     $11,143,784,058    35
New Mexico         $2,017,386       $31,424        $1,985,962      $1,827,905      $3,471,930,215    17
New York         $134,493,522    $19,177,053     $115,316,469     $45,054,451     $54,192,911,238    300
North Carolina    $47,052,649    $14,294,435      $32,758,214      $5,357,886     $12,463,184,143    48
Ohio              $41,072,514     $5,942,719      $35,129,795      $7,344,992     $17,237,076,852    77
Oklahoma          $28,399,517     $1,360,282      $27,039,234      $1,986,667      $4,752,126,532    22
Oregon            $15,151,850      $895,244       $14,256,606      $1,806,515      $5,600,397,595    14.5




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                      21
                                                  APPENDIXES

                                Table C2: Recoveries, Expenditures, and Staff by State
                                         Recoveries                                         Expenditures                     Staff
State                                                                                                                         on
                              Total          Criminal                   Civil     MFCU Grant           Total Medicaid
                                                                                                                             Board
Pennsylvania            $30,729,120         $2,666,616          $28,062,504          $4,730,372         $21,698,977,826        33
Rhode Island             $4,381,892            $62,301            $4,319,590         $1,184,944          $2,018,428,048        11
South Carolina          $19,983,522         $1,609,887          $18,373,636          $1,451,006          $4,921,639,527        15
South Dakota             $3,053,873           $365,165            $2,688,709           $384,176            $820,357,642         5
Tennessee               $78,870,739         $1,167,952          $77,702,787          $3,990,162          $9,022,143,146        32
Texas                 $196,718,960         $81,995,797         $114,723,163         $15,582,973         $29,086,162,849       181
Utah                     $7,989,088            $49,173            $7,939,915         $1,817,277          $2,229,362,038        13
Vermont                  $5,507,996            $58,600            $5,449,397           $987,268          $1,499,744,254         7
Virginia             $1,008,988,075       $704,439,186         $304,548,889         $11,249,106          $7,604,993,529        96
Washington              $16,562,704           $192,715          $16,369,988          $3,596,829          $8,407,111,070       30.5
West Virginia           $16,148,738         $3,779,140          $12,369,599          $1,112,518          $3,181,083,472        14
Wisconsin               $54,757,244            $54,750          $54,702,494          $1,274,531          $7,390,660,088        11
Wyoming                  $1,623,272            $76,388            $1,546,884           $489,024            $594,690,624         4
Total                $2,506,642,044       $968,878,848       $1,537,756,196        $230,064,270       $453,082,711,064      1,911.5

Source: OIG analysis of Quarterly Statistical Reports, 2013.

*MFCU Grant Expenditure data is current as of February 11, 2014.

*Federal and State Governments for MFCU operations expenditures of $230 million and MFCU reported recoveries of over 

$2.5 billion translates to a return on investment (ROI) of $10.90 per $1 expended by the MFCU. ROI is calculated as the total dollar

amount of recoveries in both civil and criminal cases divided by the total amount of grant expenditures by Federal and State 

governments.

For additional FY 2013 Statistical Data, please see http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                                                22
                                              APPENDIXES

Appendix D: Additional Analysis, MFCU Case Outcomes,
FYs 2010-2013
Criminal Convictions and Civil Settlements and Judgments, FYs 2010-2013
As shown in Chart D1, the total number of MFCU case outcomes (criminal convictions and civil
settlements and judgments) remained steady in FY 2013 compared to recent years. Consistently
during each year, the number of criminal convictions was greater than the number of civil
settlements and judgments.
       Chart D1: Number of Case Outcomes, Criminal and Civil, FYs 2010-2013

           3,000

           2,500

           2,000
                                 1,090          907          824         879
           1,500                                                                Civil
                                                                                Criminal
           1,000
                                 1,329        1,230         1,336       1,341
              500


                 0

                       FY 2010       FY 2011        FY 2012        FY 2013


       Source: OIG analysis of Quarterly Statistical Reports, 2013.

Criminal and Civil Recoveries, FYs 2010-2013
As shown in Chart D2, the total amount of recoveries resulting from MFCU work varied in
recent years—under $2 billion in FYs 2010 and 2011, and exceeding $2 billion in
FYs 2012 and 2013.
       Chart D2: Criminal and Civil Recoveries, FYs 2010-2013


           $3,500,000,000
           $3,000,000,000
           $2,500,000,000
           $2,000,000,000
                                                                                    Criminal
           $1,500,000,000
                                                                                    Civil
           $1,000,000,000
              $500,000,000
                            $0
                                   FY 2010 FY 2011 FY 2012 FY2013

       Source: OIG analysis of Quarterly Statistical Reports, 2013.




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                           23
                                            APPENDIXES

Appendix E: Onsite Reviews Conducted and Reports Published in
FY 2013

Onsite Reviews Conducted, FY 2013
MFCU Reviewed                                                                              Onsite Review Date

Montana Medicaid Fraud Control Unit                                                            December 2012

New Jersey Medicaid Fraud Control Unit                                                           January 2013

Arkansas Medicaid Fraud Control Unit                                                             January 2013

West Virginia Medicaid Fraud Control Unit                                                       February 2013

Michigan Medicaid Fraud Control Unit                                                              March 2013

Minnesota Medicaid Fraud Control Unit                                                               April 2013

Indiana Medicaid Fraud Control Unit                                                                 May 2013

Vermont Medicaid Fraud Control Unit                                                                 July 2013

Texas Medicaid Fraud Control Unit                                                                 August 2013

Utah Medicaid Fraud Control Unit                                                              September 2013

Source: http://oig.hhs.gov/reports-and-publications/oei/m.asp#mfcu




FY 2013 Reports on Onsite Reviews
Report Title                                                              Release Date     OIG Report Number

Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review       September 20, 2013       OEI-06-12-00720

New Jersey Medicaid Fraud Control Unit: 2013 Onsite Review           September 18, 2013       OEI-02-13-00020

Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review            June 12, 2013       OEI-07-12-00510

Tennessee State Medicaid Fraud Control Unit: 2012 Onsite                  April 24, 2013       OEI-6-12-00370
Review

Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review               April 16, 2013      OEI-09-12-00220

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review      December 28, 2012        OEI-09-12-00010

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review          October 19, 2012       OEI-02-12-00180

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite          October 17, 2012       OEI-09-11-00610
Review

Source: http://oig.hhs.gov/reports-and-publications/oei/m.asp#mfcu




Medicaid Fraud Control Units FY 2013 Annual Report (OEI-06-13-00340)                                       24
                          ACKNOWLEDGEMENTS
                             LWEDGEMENTS
This report was prepared under the direction of Richard Stern, Director of Medicaid Fraud Policy
and Oversight in Washington, D.C.; Kevin Golladay, Regional Inspector General for Evaluation
and Inspections in the Dallas regional office; and Blaine Collins and Ruth Ann Dorrill, Deputy
Regional Inspectors General in the Dallas regional office.
Lyndsay Patty served as team leader for this study. Other Office of Evaluation and Inspections
staff who provided support include Thomas Brannon, Susan Burbach, Malinda Hicks, and
Christine Moritz. Office of Management and Policy staff who provided support include Alexis
Crowley. Office of Investigations staff who provided support include Jason Weinstock. Office
of Counsel to the Inspector General staff who provided support include Andrew VanLandingham.




                                                                                             25
MFCU FY 2013 Annual Report (OEI-06-13-00340)
                                              ENDNOTES

1
  Social Security Act (SSA) § 1903(q).

2
  SSA § 1903(a)(61).

3
  SSA § 1903(a)(6)(B).

4
  Office of Inspector General (OIG), State Medicaid Fraud Control Units Fiscal Year 2013 Statistical Chart. 

5
  Ibid. 

6
  SSA §§ 1903(q) & (q)(2); 42 CFR §§ 1007.5 and 1007.9(d). 

7
  SSA § 1903(q)(1).

8
  OIG, Medicaid Fraud Control Units. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
mfcu/index.asp on September 25, 2013.

9
  SSA § 1903(q)(6) and 42 CFR § 1007.13.

10
    SSA § 1903(q)(4).

11
    Prior to the current standards issued in June 2012, MFCU performance standards were previously issued in 1994, 

and accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp. 59 Fed. Reg. 49080 

(Sept. 26, 1994). 

12
    Cases may involve participation by other Federal and State law enforcement agencies.

13
    42 CFR § 1007.11(b)(1) allows Units to receive Federal financial participation (FFP) for reviewing complaints of

the misappropriation of patient’s private funds. This authority falls under the Units’ general patient abuse and

neglect duties.

14
    The total number of settlements exceeds the total number of cases finalized by MFCUs in 2013, as in other years. 

The reason is that many global cases result in multiple settlements - between the defendant and each State MFCU 

that is party to the investigation and civil matter. 

15
    According to SSA § 1128, 42 USC § 1320a-7, OIG is required to exclude from participation in all Federal health 

care programs individuals and entities convicted of the following types of criminal offenses: Medicare or Medicaid

fraud, as well as any other offenses related to the delivery of items or services under Medicare, Medicaid, the

Children’s Health Insurance Program (CHIP), or other State health care programs; patient abuse or neglect; felony

convictions for other health care-related fraud, theft, or other financial misconduct; and felony convictions relating

to unlawful manufacture, distribution, prescription, or dispensing of controlled substances. 

http://oig.hhs.gov/exclusions/background.asp.
16
    OIG, The Effect of Exclusion From Participation in Federal Health Care Programs. Special Advisory Bulletin. 

September 1999. Accessed at http://oig.hhs.gov/exclusions/effects_of_exclusion.asp on September 17, 2013. 

17
    Centers for Medicare & Medicaid Services (CMS), Medicaid Managed Care Enrollment Report: Summary

Statistics as of July 1, 2011. http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Data-and-
Systems/Downloads/2011-Medicaid-MC-Enrollment-Report.pdf.

18
    Medicaid Managed Care: Fraud and Abuse Concerns Remain Despite Safeguards, OEI-01-09-00550.

19
    42 CFR § 438.608.

20
    The remaining Units either did not report any referrals or explained that MCOs in their States typically made 

referrals to the State Medicaid agency, and therefore they could not report the actual number of referrals from MCOs 

separate from other referral sources.

21
    P.L. 111-148, § 6402(h)(2), (March 23, 2010), as amended by the Health Care Reconciliation Act of 2010, P.L. 

111-152 (March 30, 2010), collectively known as ACA; 42 CFR § 455.23(a); 76 Fed. Reg. 5862 (February 2, 2011). 

22
    Prior to ACA, Medicaid agencies were required to demonstrate “reliable evidence” of provider fraud or willful 

misrepresentation, before withholding Medicaid payments. (52 Fed. Reg. 48814 (December 28, 1987)). However, 

pursuant to ACA, the threshold requirement of “reliable evidence” was reduced to a “credible allegation of fraud.” 

23
    Allegations of fraud come from a variety of sources. Examples of allegation sources include, but are not limited 

to, fraud hotline complaints, data mining, provider audits, civil false claims cases, and law enforcement 

investigations. 42 CFR § 455.2. For further information, see CMS guidance to State agencies regarding

determination of credible allegation and imposing payment suspensions. CMS, Guidance to States on Section 

6402(h)(2) of ACA Program Integrity Provisions, CPI-B 11-04, 2011. Accessed at 

http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/files/payment-suspensions-info-bulletin-3-25-2011.pdf
on July 9, 2013. 

24
    Performance Standard 10A.

25
    Performance Standard 8F.

26
   78 Fed. Reg. 29055 (May 17, 2013). 

27
    2014 Fiscal Year 2014 Budget in Brief, Strengthening Health and Opportunity for all Americans, p. 64, 

www.hhs.gov/budget/fy2014/fy-2014-budget-in-brief.pdf. 


                                                                                                                  26
MFCU FY 2013 Annual Report (OEI-06-13-00340)
